May 2, 2008

DOUG A. TULINO
VICE PRESIDENT, LABOR RELATIONS

SANDRA J. SAVOIE
MANAGER, CONTRACT ADMINISTRATION NATIONAL POSTAL MAIL HANDLERS
 UNION AND EMPLOYEE ASSISTANCE PROGRAM/WORKPLACE ENVIRONMENT
 IMPROVEMENT PROGRAMS

SUBJECT: Audit Report – Violence Prevention and Response Programs in Selected
         Locations (Report Number HM-AR-08-006)

This report presents the summary results of the U.S. Postal Service Office of Inspector
General’s (OIG) self-initiated audits of the U.S. Postal Service’s violence prevention and
response programs in five areas and 15 performance clusters (PCs) (Project Number
08YG011HM000).

Our overall objective was to determine if the violence prevention and response
programs in the 15 judgmentally selected PCs shown in Table 1 effectively reduced the
potential for violence. Specifically, we determined whether (1) the PCs implemented
required controls (policies and procedures) to reduce the potential for violence and
(2) oversight of the workplace violence prevention programs at the headquarters, area,
and PC levels was adequate to ensure compliance with these controls.

Table 1: Judgmentally Selected Locations

  Capital Metro
      Area           Northeast Area      Pacific Area    Southeast Area       Southwest Area

 1. Capital         4. Albany           8. Sacramento   10. Central Florida   13. Albuquerque
 2. Greater South   5. Boston           9. San Diego    11. South Florida     14. Dallas
    Carolina        6. Massachusetts                    12. Suncoast          15. Fort Worth
 3. Richmond        7. New Hampshire/
                       Vermont

This is the final report in a series of six reports on the violence prevention and response
programs. This report summarizes the conditions reported in the 15 PCs,
management’s actions to correct the conditions, issues identified with nationwide
impact, and the level of oversight of the workplace violence prevention programs at the
headquarters level.
Violence Prevention and Response Programs                                                     HM-AR-08-006
 in Selected Locations


We concluded that all 15 PCs established threat assessment teams (TATs) and took
many positive steps to reduce the potential for violence such as conducting climate
assessments and Voice of the Employee (VOE) Survey1 focus groups. However, the
PCs’ violence prevention and response programs may not be fully effective in reducing
the potential for violence because the district and plant managers (PC managers) and
the TATs did not implement many of the required policies and procedures. In addition,
headquarters, area, and district personnel did not provide adequate oversight of the
violence prevention and response programs to ensure compliance with policies and
procedures. Although we cannot state with certainty that following policies and
procedures will prevent violence in the workplace, compliance with them can provide
management with valuable information about the existing workplace climate.
Management can then use this information to assess actions needed to reduce the
potential for violence.

We issued reports to five area vice presidents and made 69 recommendations to assist
the areas, the 15 PCs, and their TATs with improving the effectiveness of the violence
prevention and response programs. Management’s comments to the recommendations
were responsive and the corrective actions should resolve the issues identified.

This report includes four recommendations to assist the Vice President, Labor
Relations, and the Manager, Contract Administration National Postal Mail Handlers
Union and Employee Assistance Program/Workplace Environment Improvement
(EAP/WEI) Programs, to further improve the workplace violence prevention and
response programs. Implementation of these recommendations should also improve
the safety and security of employees and prevent harm to the Postal Service’s
reputation (goodwill). We will report these non-monetary impacts in our Semiannual
Report to Congress.

Management agreed to implement all four recommendations, and the actions taken or
planned should correct the issues identified. Management also stated they were
concerned that the review’s objective was flawed and inconsistent with workplace
violence research. Management’s comments and our evaluation of these comments
are included in the report.

                                                Background

The Postal Service has long recognized the importance of ensuring the safety of its
employees by creating and maintaining a work environment that is violence-free. In
addition, the agency is obligated under the Occupational Safety and Health
Administration (OSHA) “General Duty” clause to provide a safe and healthful working
environment for all workers covered by the Occupational Safety and Health Act (the
OSH Act) of 1970. To prevent violence in the workplace and minimize the potential risk,
the Postal Service established the following criteria:

1
  The VOE Survey is a data collection instrument used to obtain information from career employees regarding how
they feel about their workplace environment. The Postal Service uses this information in a number of ways, to
include ensuring employees feel safe in their workplace.


                                                        2
Violence Prevention and Response Programs                                   HM-AR-08-006
 in Selected Locations



      •    The Administrative Support Manual (ASM) requires security control officers or
           their designees to conduct annual facility security reviews.

      •    The Joint Statement on Violence and Behavior in the Workplace (Joint
           Statement) signed by union and management association presidents and the
           Deputy Postmaster General in 1992 states the Postal Service will not tolerate
           violent and inappropriate behavior by anyone, at any level. (See Appendix B for
           a copy of the Joint Statement.)

      •    The Threat Assessment Team Guide (TAT Guide)2 requires TATs to assess and
           respond to violent and potentially violent situations. The guide outlines the
           following six organizational strategies to enhance the development of TATs and
           reduce violence: (1) selection, (2) security, (3) communication of policy, (4)
           environment and culture, (5) employee support, and (6) separation.

The strategies are an integral part of the Postal Service’s Strategic Transformation Plan
2006–2010, which identifies engaging and motivating the workforce as one of its goals.
A key transformation strategy for achieving this goal is maintaining a safe work
environment for all employees.

The Postal Service Headquarters EAP/WEI Programs Office provides oversight of the
Postal Service’s Workplace Violence Prevention and Response Programs and TAT
processes both at headquarters and in the field. The EAP/WEI Programs Office
function also includes developing the workplace environment manager and analyst roles
at the area and PC levels and communicating policies and procedures to improve the
workplace environment.

This audit reviewed implementation of required controls related to three of the six
organizational strategies for reducing workplace violence — security, communication of
policy, and environment and culture — and oversight of the violence prevention and
response programs at the headquarters, area, and PC levels.

                                 Objectives, Scope, and Methodology

See Appendix C for details on our objectives, scope, and methodology.

                                         Prior Audit Coverage

See Appendix D for a list of prior audit reports.




2
    Publication 108, dated March 2007.


                                                  3
Violence Prevention and Response Programs                                                       HM-AR-08-006
 in Selected Locations


                                                    Results

The following summarizes our findings and recommendations regarding the 15 PCs’
violence prevention and response programs and headquarters, area, and PC oversight.
(See Appendix E for details regarding our findings.)

Security Strategy – Ensure appropriate safeguards for employees, customers,
and property.

Fourteen of the 15 PCs may not have ensured appropriate safeguards for employees,
customers, and property. Five of the 14 PCs did not consistently ensure appropriate
security safeguards because management did not establish consolidated standard
operating procedures and guidance, implement appropriate internal and management
controls, and require installation heads to certify they had corrected deficiencies. Our
March and May 2007 reports regarding these five PCs disclosed that management
needed to make improvements to protect employees, customers, the mail, and critical
assets.3 The area offices took corrective actions prior to and after issuance of our
reports.

Nine of the PCs may not have ensured appropriate security safeguards were in place
and complied with at many facilities. The nine PC security coordinators stated they took
corrective actions on the security and safety deficiencies identified in fiscal year (FY)
2006 Area Security Assessment Program (ASAP) reviews,4 however, they did not
maintain documentation regarding the actions taken or how the actions corrected the
deficiencies. This occurred because management did not require installation heads to
certify they had corrected deficiencies. In FY 2007, the nine area security coordinators
took corrective action to ensure documentation was maintained.

Appropriate security safeguards assist in preventing violence in the workplace. One
such safeguard is preventing unauthorized individuals from gaining access to Postal
Service facilities by securing doors. The FY 2006 VOE Survey results for the 15 PCs
indicate that numerous employees5 were concerned that unauthorized individuals could
gain access to facilities in their PCs.

We are not making further recommendations since management’s actions addressed
the security issues.




3
  Postal Service Security Controls and Processes for the Capital Metro Area (Report Number SA-AR-07-002, dated
March 30, 2007) and Postal Service Security Controls and Processes for the Pacific Area (Report Number
SA-AR-07-003, dated May 9, 2007).
4
  The ASAP was a broad facility review of about 16 yes/no questions regarding core national and area security items.
The OIG report titled Postal Inspection Service Security Controls and Processes - Area Security Assessment
Program (Report Number SA-AR-07-004, dated July 10, 2007) identified that ASAPs were duplicative of security
reviews performed by the Postal Inspection Service and the reviews have been discontinued.
5
  Of the 78,923 employees that responded to the survey, 15,663 responded negatively to the statement that access
to their building is allowed through a system or procedure that keeps unauthorized individuals from entering.


                                                         4
Violence Prevention and Response Programs                                                        HM-AR-08-006
 in Selected Locations


Communication of Policy Strategy – Consistently communicate and enforce
Postal Service policy regarding violent and inappropriate behavior.

Local Zero Tolerance Policy Postings Could be Improved

The 15 PCs disseminated copies of their current local zero tolerance policy to all PC
employees in FY 2006 through stand-up talks and new employee orientation classes.
However, management could improve their procedures for posting the zero tolerance
policy, which sometimes was not posted at all, was not visible, or was not signed by the
lead plant managers at some of the facilities we visited.

Human Resources (HR) managers provided various reasons for why the policies were
not properly posted, including assertions that it was an oversight or that they were not
aware that lead plant managers’ signatures were required on the policy.

Properly posting the zero tolerance policy in all facilities was a local requirement at all
15 PCs, based on the TAT Guide, which allows PCs to disseminate information through
a number of communication methods. We agree that posting the current zero tolerance
policy may reduce the potential for violence in the workplace because it makes
important information available on the workroom floor, where employees may need it
most. In addition, while the TAT Guide does not specifically state that both PC
managers must sign the policy statement, it does require the commitment of both
managers to the policy, and provides two sample policy statements that indicate both
managers should sign it. When both PC managers sign the zero tolerance policy, it
reaffirms to all employees the managers’ commitment to a violence-free workplace.

In response to our recommendations, all five area vice presidents implemented internal
controls requiring all district managers to submit an annual written certification to their
respective area vice presidents that zero tolerance policies are posted, visible, and
updated in all facilities.

Workplace Violence Awareness Training Needed for Some Employees

The 15 PC HR managers ensured most employees received the FY 2006 WEI training
that is mandatory for all Postal Service employees. Thirteen of the 15 PC HR managers
also ensured all TAT core members6 received the required 2-day TAT orientation class
training; however, two did not. In addition, the 15 PC HR managers did not ensure all
managers, supervisors, and 204b supervisors7 received the required 8-hour (one-time)
workplace violence awareness training.




6
  At the time of our review, TAT core members included the HR manager or designee, labor relations manager,
medical director or occupational health nurse administrator, district manager or designee, and lead plant manager or
designee.
7
  A 204b supervisor is a bargaining employee detailed to an acting supervisor position.


                                                          5
Violence Prevention and Response Programs                                                      HM-AR-08-006
 in Selected Locations


HR managers provided a number of reasons why the required training was not
provided:

    •   Training was cancelled due to operational needs.

    •   HR managers were not aware of the 8-hour training requirement because it did
        not appear on the headquarters’ list of FY 2006 mandatory training requirements.

    •   The National Training Database (NTD) exception reports for the 8-hour course
        did not identify which non-bargaining employees were supervisors or managers.8

    •   The NTD did not identify bargaining employees detailed to 204b supervisor
        positions.

We confirmed with a Headquarters Training Development Specialist9 that the
headquarters list of FY 2006 mandatory training represents annual training
requirements and, therefore, the 8-hour course did not appear. The specialist stated
that the TAT Guide communicates the requirement for the 8-hour course to HR
managers.

We also verified that the NTD exception report for the 8-hour course does not identify
which non-bargaining employees are supervisors or managers. However, HR
managers could use the NTD executive administrative service report to identify the
managers and supervisors who have not completed the one-time course.

We further verified that the NTD does not identify 204b supervisors and management
manually tracks their training to ensure it is completed as required. This is because the
NTD identifies employees by their occupational code and there is no occupational code
for the 204b supervisor position.

According to the EAP/WEI Programs Manager, her office is re-evaluating the
requirement that all 204b supervisors receive the 8-hour training. She explained that
management does not believe it is a good business decision to require 204b
supervisors detailed for short periods (a week or less) to complete the training. She
also stated the 8-hour training is incorporated into the Associate Supervisors Program
(ASP)10 to ensure supervisors receive the training and policy requires that all new
supervisors attend the ASP.

Postal Service employees who do not receive the required workplace violence
awareness training may not effectively recognize, prevent, and respond to violent and

8
  The non-bargaining employee category also includes secretaries, technicians, and other non-managers who are not
required to take the 8-hour training.
9
  The Headquarters Training Development Specialist works for the Vice President, Employee Development and
Diversity, who is responsible for disseminating employee annual training requirements to the areas and PCs.
10
   The ASP is a 16-week program used to attract, select, and train the best possible candidates for first-line
supervisory positions. The program provides the trainees with the critical knowledge and skills necessary to become
highly effective Postal Service leaders.


                                                         6
Violence Prevention and Response Programs                                  HM-AR-08-006
 in Selected Locations


potentially violent situations. In addition, TAT members who are not adequately trained
may not effectively establish or administer violence prevention and response programs
to reduce the risk of violence in the workplace.

We believe 204b supervisors detailed for extended periods (more than a week) or
frequently over time would benefit from training that includes communication skills and
how to identify potentially threatening situations and behavioral warning signs of at-risk
employees. Management could give a 204b supervisor detailed for a shorter period (a
week or less) modified training or instructions on responding to threatening situations.

In response to our recommendations, all five area vice presidents directed their PCs to
ensure all employees completed the required workplace violence awareness training.
For example, the Capital Metro Area Vice President directed district managers to
identify all managers, supervisors, and 204b supervisors and ensure they took the
8-hour course. The Southwest Area district managers were directed to conduct
quarterly periodic reviews to ensure mandatory training is received.

Corrective Actions

In November 2006, the Postal Service Headquarters EAP/WEI Programs Office
established a web-based TAT Membership and Meeting Tool to ensure TAT core
members receive the required training in accordance with the TAT Guide. Effective
March 2007, each PC is required to timely update the information for their TAT core
members.

Recommendations

We recommend the Manager, Contract Administration National Postal Mail Handlers
Union and Employee Assistance Program/Workplace Environment Improvement
Programs:

   1. Instruct all area and performance cluster Human Resources managers to use the
      National Training Database Executive Administrative Service Report to identify
      supervisors and managers who have not received the 8-hour (one-time)
      workplace violence awareness training.

We also recommend the Vice President, Labor Relations:

   2. Ensure 204b supervisors detailed for extended periods (more than a week) or
      frequently detailed over time receive workplace violence awareness training on
      communications skills, how to identify potentially threatening situations, and
      behavioral warning signs of at-risk employees. Management could modify
      training for 204b supervisors detailed for shorter periods (a week or less) to
      include written instructions or a point paper on how to respond to threatening
      situations.




                                             7
Violence Prevention and Response Programs                                                       HM-AR-08-006
 in Selected Locations


     3. Coordinate with the Vice Presidents, Employee Development and Diversity, and
        Employee Resource Management to determine the most efficient way for area
        and performance cluster Human Resources managers to identify 204b
        supervisors and their completion of workplace violence awareness training or
        other mandatory training required for their position.11

Strategies to Enforce Postal Service Policy Not Fully Implemented

Two of the 15 TATs fully implemented violence prevention strategies to ensure incidents
of violent and inappropriate behavior were fully addressed in accordance with the TAT
Guide; however, 13 did not. This occurred because HR managers did not fully
understand the importance of TAT responsibilities. For example, the incidents reported
to one TAT were not documented and may not have been addressed. Other HR
managers believed that despite the findings on the 123 incidents, the TAT handled the
incidents appropriately. In addition, one HR manager believed the TAT requirement to
monitor and track incidents to ensure resolution was a suggestion.

Opportunities to prevent a violent incident from occurring diminish when management
does not fully implement violence prevention strategies to properly address potentially
violent incidents. In addition, management needs to appropriately and immediately
respond to potentially violent incidents.

In response to our recommendations, all five area vice presidents implemented internal
controls to ensure TATs comply with the TAT Guide when responding to and assessing
reports of potentially violent situations and inappropriate behavior. For example, the
Southeast Area developed a checklist for district HR managers to certify the level of
compliance with 21 controls (policies and procedures) to reduce the potential for
violence. The Northeast Area required each PC to annually certify that their TAT is
conducting business in accordance with the TAT Guide.

Environment and Culture Strategy – Create a work setting and maintain an
atmosphere perceived to be fair and free from unlawful and inappropriate
behavior.

Monitoring and Evaluating Workplace Climate Indicators

All 15 PC HR managers took positive steps toward creating an atmosphere perceived to
be fair and free from unlawful and inappropriate behavior. For example, they
disseminated zero tolerance policies to all employees and provided some formal
employee training. The HR managers also identified events that could escalate the
potential for violence by monitoring and evaluating VOE Survey scores, numbers of
grievances, Equal Employment Opportunity (EEO) complaints, EAP referral data, and
the number of assaults and credible threats. However, 14 of the 15 HR managers did
not document how (or how often) they monitored and evaluated these climate

11
   According to the Headquarters Training Development Specialist, the Postal Service is currently designing SAP to
track employee training and there may be an opportunity to include an identifier for 204b supervisors.


                                                         8
Violence Prevention and Response Programs                                                           HM-AR-08-006
 in Selected Locations


indicators, other than their quarterly monitoring and evaluation of the VOE Survey
results (one PC did). This occurred because the managers considered evaluations of
the VOE Survey results sufficient documentation of the workplace climate indicators.

Effective monitoring can help create a work setting and atmosphere that is perceived to
be fair and free from unlawful and inappropriate behavior. For example, documenting
the evaluation of climate indicators from previous quarters allows management to
identify trends and hotspots to reduce the potential for violence. While the VOE Survey
is an important indicator of the workplace climate, it only reports results at the facility
level when 10 or more employees respond. In that regard, the VOE Survey should not
be the only climate indicator documented because it does not represent all facilities.

In addition, our review of 139 complaints the OIG Hotline received during FY 2006
indicates that some employees at the 15 PCs reported workplace environment issues.
Some of these employees sent their workplace environment complaints to the OIG
because they believed they had exhausted all avenues for resolution in their workplace.
We believe employees could view work sites where management proactively moderates
the risk of violent situations as the agency’s commitment to the zero tolerance policy.

In response to our recommendations, all five area vice presidents required that PC
managers ensure TATs document their evaluations of climate indicators to identify
trends and potential hotspots.

Team Process and Performance Measures Could be Improved

TAT Members, Meetings, and Minutes

Thirteen of the 15 PC TATs had the requisite number and type of team members;
however, two did not. This occurred because the HR managers were not aware of the
TAT Guide requirement. In addition, 13 of the 15 TATs did not consistently conduct
quarterly12 meetings, properly prepare meeting minutes, and disseminate minutes to the
required TAT members (also required by the TAT Guide), while two did. HR managers
told us they believed the informal TAT meetings held periodically throughout the year
met the requirement, or they were not knowledgeable of some of the TAT
responsibilities and how the team should operate.

There is increased risk that TATs will not achieve their primary mission of preventing
workplace violence when they do not conduct meetings regularly and properly
document the meeting information.

In response to our recommendations, all five area vice presidents reminded district
managers of their responsibility to conduct meetings and properly document and
disseminate the minutes to the appropriate TAT members.



12
     The Postal Service modified the TAT Guide in March 2007 to require meetings twice a quarter.


                                                           9
Violence Prevention and Response Programs                              HM-AR-08-006
 in Selected Locations


Corrective Actions

The TAT Membership and Meeting Tool the Headquarters EAP/WEI Programs Office
implemented in November 2006 should help to ensure that management conducts and
documents TAT meetings and disseminates meeting minutes in accordance with the
TAT Guide. Further, effective March 2007, each PC is required to timely update the
information for their TAT.

TAT Performance Measures

Fourteen of the 15 HR managers stated they implemented performance measures such
as verbal feedback from employees, informal TAT discussions, and surveys to gauge
whether the TATs were successful or needed to change their processes. However, 14
HR managers did not document the measures they used and those measures may not
have been adequate. One HR manager did not implement any performance measures.

TATs cannot provide assurance that their efforts to prevent violent incidents in the
workplace are successful or whether they need improvement when they do not
document these efforts. In addition, using the primary measures suggested in the TAT
Guide may provide more useful information to identify areas for TAT improvement.

In response to our recommendations, all five area vice presidents agreed to implement
controls to ensure the TATs document the processes used to measure their
performance and ensure the measures used are adequate for gauging their success
and identifying areas for improvement.

Oversight of the Workplace Violence Prevention Program

Area and PC Oversight

Our review of TAT activities in the 15 PCs indicated the five area vice presidents and
PC and HR managers did not provide adequate oversight of the workplace violence
prevention and response programs. The area PC and HR managers did not ensure the
TATs implemented many of the required policies and procedures to reduce the potential
for violence related to security, communication of policy, and the environment and
culture. The area PC and HR managers also did not ensure that TATs followed
appropriate processes and documented performance measures. Most of the area HR
managers stated they relied on the PC managers, and the PC managers stated they
relied on the PC HR managers to ensure compliance with the TAT Guide requirements.

In addition, six former area HR managers did not ensure their PCs fully implemented
the workplace violence prevention programs even though the OIG recommended
improvements to the programs in 1999 and 2000. (See Appendix D for a list of these
audit reports.)




                                            10
Violence Prevention and Response Programs                                                   HM-AR-08-006
 in Selected Locations


Adequate oversight at the area and PC levels could reduce the potential for violence.
Specifically, when TATs do not follow important workplace violence prevention and
response program policies and procedures, the teams may not be fully effective in
reducing the potential for violence.

In response to our recommendations, all five area vice presidents required annual
certifications from district managers, confirming that TATs are conducting business in
accordance with the TAT Guide.

Recommendation

We recommend the Manager, Contract Administration National Postal Mail Handlers
Union and Employee Assistance Program/Workplace Environment Improvement
Programs:

     4. Determine if the findings related to the five areas and 15 performance clusters
        exist in the remaining Postal Service Areas of Operations – Eastern, Great
        Lakes, New York Metro, and Western – and their performance clusters, and
        where necessary, take action to ensure management implements adequate
        controls.

Headquarters Oversight

The Headquarters EAP/WEI Programs Office did not provide adequate oversight of the
area and district workplace violence prevention and response programs to ensure
compliance with policies and procedures. The activities of the 15 TATs were not
monitored and TAT processes were not reviewed to determine compliance with the TAT
Guide, and whether the processes were effective or needed improvement. The
transition of the Headquarters EAP/WEI Programs Office from the Vice President,
Employee Resource Management, to the Vice President, Labor Relations, in May
200513 and a change in EAP/WEI Programs managers in FY 2007 may have
contributed to a reliance on the areas and PCs to provide oversight of the programs.
For example, the Headquarters EAP/WEI Programs managers (former and current)
needed time to identify the specific violence prevention and response program areas
needing improvement and oversight.

However, since the start of our audit work in October 2006, the EAP/WEI Programs
Office implemented the following initiatives to provide oversight and to improve the
violence prevention and response programs:

     •   As previously stated, in November 2006, a web-based TAT Membership and
         Meeting Tool was established to ensure TAT core members receive required
         workplace violence training and to ensure that management conducts and
         documents TAT meetings and disseminates meeting minutes in accordance with

13
  In May 2005, the Manager, Contract Administration National Postal Mail Handlers Union, assumed the added
responsibility for the EAP/WEI Programs Office.


                                                      11
Violence Prevention and Response Programs                                                        HM-AR-08-006
 in Selected Locations


         the TAT Guide. Beginning in March 2007, each PC was also required to timely
         update information on their TAT core members.

     •   In December 2006, the Postal Service established a National Committee on
         Workplace Violence Prevention14 to oversee the violence prevention and
         response programs and enhance the policies and procedures that guide the
         programs.

     •   In March 2007, the Postal Service updated the TAT Guide with new information
         and compliance measures for the TATs.

     •   In October 2007, the Postal Service created workplace environment manager
         positions at the nine area offices and the PC workplace environment analysts
         now report to the area workplace environment managers. The agency made
         these changes so areas could monitor the PCs’ compliance with the violence
         prevention and response programs and share best practices.

     •   In FY 2008, management implemented an online training course for interim and
         new TAT members to take during the first 30 days of their TAT assignment. The
         intent of this course is to provide immediate training to TAT core members while
         they are waiting for the next available 2-day orientation training.

The internal controls outlined above should provide sufficient headquarters oversight of
TAT activities and improve the workplace violence prevention and response programs
at the area and PC levels. This oversight should also help ensure the TAT teams are
effective in comprehensively implementing the Postal Service’s workplace violence
prevention program strategies to reduce the potential for violence. As a result, we have
no additional recommendations regarding headquarters oversight.

Management’s Comments

Management concurred with all four recommendations and provided a description of
planned actions and implementation dates. Management also stated they were
concerned that the review’s objective to determine if violence prevention and response
programs were effective to reduce the potential for violence was flawed and inconsistent
with workplace violence research. Management stated that the objective should be
consistent with the activities and compliance measures of the auditors. Management
further stated that the objective in the OIG’s previous violence prevention work, to
determine if districts implemented violence prevention and response program policy,
was more reflective of the activities reviewed in this audit.15 Management’s comments,
in their entirety, are included in Appendix F.

14
   The committee members include 18 area and/or district employees and seven Headquarters EAP/WEI Programs
Office employees. In addition, involvement from the Postal Inspection Service and outside professionals is solicited.
The EAP/WEI Programs Manager appoints a committee chairperson.
15
   National Capping Report on the Postal Service Violence Prevention and Response Programs (Report Number LB-
AR-01-020, dated August 23, 2001).


                                                         12
Violence Prevention and Response Programs                                HM-AR-08-006
 in Selected Locations


Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s corrective actions should resolve the issues identified in the report. We
do not agree that the review’s objective was flawed, inconsistent with workplace
violence research, or dissimilar from previous OIG work. The objectives in this and the
previous reviews were based on the Postal Service’s criteria for reducing workplace
violence. Specifically, the Postal Service’s TAT Guide states the most effective way to
respond to the problem of violence in the workplace is to develop strategies to prevent
it. Our objective in this review involved assessing management’s strategies to reduce
the potential for such violence. Specifically, we reviewed (1) the PCs’ implementation of
required controls (policies and procedures) to reduce the potential for violence and
(2) oversight of the workplace violence prevention programs at the headquarters, area,
and PC levels. Assessing these strategies logically gives insight into the Postal
Service’s overall effectiveness in reducing the potential for such violence. Our findings
that managers and TATs did not implement many required policies and procedures and
that personnel did not provide adequate oversight to ensure compliance, led us to
conclude that the violence prevention and response programs may not be fully effective
in reducing the potential for violence. Finally, our work was not an academic research
project, but rather an audit in compliance with Government Accountability Office
standards for performance audits. As such, our audit objective was not intended to
mirror what may be used in academic research.

The OIG considers recommendations 1 through 4 significant, and therefore requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective actions are completed. These recommendations should not be closed
in the follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Chris Nicoloff,
Director, Human Capital, or me at (703) 248-2100.


 E-Signed by Darrell E. Benjamin, Jr
 VERIFY authenticity with ApproveIt
Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Mary Anne Gibbons
    Susan M. LaChance
    Deborah M. Giannoni-Jackson
    Katherine S. Banks


                                            13
Violence Prevention and Response Programs                        HM-AR-08-006
 in Selected Locations


                                 APPENDIX A: ACRONYMS

ASAP           Area Security Assessment Program
ASP            Associate Supervisor Program
ASM            Administrative Support Manual
EAP            Employee Assistance Program
EEO            Equal Employment Opportunity
FOIA           Freedom of Information Act
FY             Fiscal Year
HR             Human Resources
NTD            National Training Database
OIG            U.S. Postal Service Office of Inspector General
OSHA           Occupational Safety and Health Administration
OSH Act        Occupational Safety and Health Act
PC             Performance Cluster
TAT            Threat Assessment Team
VOE            Voice of the Employee
WEI            Workplace Environment Improvement




                                            14
Violence Prevention and Response Programs                 HM-AR-08-006
 in Selected Locations


                APPENDIX B: JOINT STATEMENT ON VIOLENCE AND
                        BEHAVIOR IN THE WORKPLACE




                                            15
Violence Prevention and Response Programs                                                        HM-AR-08-006
 in Selected Locations


                APPENDIX C: OBJECTIVES, SCOPE, AND METHODOLOGY

The overall objective of this audit was to determine if the Postal Service’s violence
prevention and response programs in selected locations were effective in reducing the
potential for violence. Specifically, we determined whether (1) the PCs implemented
required controls (policies and procedures) to reduce the potential for violence and
(2) the level of oversight of the workplace violence prevention programs at the
headquarters, area, and PC levels was adequate to ensure compliance with these
controls.

To evaluate the workplace violence prevention and response programs in selected
locations, we judgmentally selected five of the nine Postal Service areas of operation
and 15 of the 40 PCs located in these areas.16 We selected these areas and PCs
based on an analysis of seven workplace environment climate indicators for FYs 2004
through 2006.17 We took steps to ensure the sample was representative of PCs where
the indicators show the climate was good and where the climate was troubled. We also
considered whether the PC appeared on the Postal Service’s troubled worksite list18
and whether the OIG conducted prior workplace environment audits in the PC. We also
included PCs where the OIG’s Inspection Service and Facilities Directorate was auditing
the Postal Service’s security controls and processes to determine if the PCs complied
with the key strategy related to security. For those PCs where no security audits were
occurring, we reviewed the FY 2006 ASAP reviews to determine the deficiencies
identified and whether the PCs took actions to correct them.

We interviewed the PCs’ HR, Labor Relations, and Training managers; the workplace
environment analyst; the areas’ HR managers and analysts; and the former and current
Headquarters' EAP/WEI Programs Managers to determine whether (1) the selected
PCs had implemented required controls to reduce the potential for violence and (2)
Postal Service internal controls existed to provide adequate oversight of the programs
at the headquarters, area, and PC levels. We also interviewed a Headquarters Training
Development Specialist and the EAP/WEI Programs Manager to determine how the
NTD is used to help ensure all employees complete workplace violence prevention
awareness training requirements. In addition, we reviewed the TAT meeting minutes
and reports used to monitor and enforce policies and procedures to reduce violence in
the workplace. We also reviewed the TAT Guide, ASM, Joint Statement, and the OSHA
“General Duty” clause to provide a safe and healthful working environment for all
workers covered by the OSH Act of 1970.

We reviewed the following data and information pertaining to the PCs’ activities related
to the violence prevention and response programs:



16
   The five Postal Service areas of operation and 15 PCs are listed in Table 1.
17
   The seven climate indicators were the VOE Survey scores, grievances, EEO complaints, EAP referrals, climate
assessments, OIG Hotline complaints, and OIG congressional inquiries regarding workplace environments.
18
   Troubled worksites are facilities where evidence exists of an ongoing history of behavioral factors that remain
unresolved at the PC and area levels.


                                                         16
Violence Prevention and Response Programs                                                       HM-AR-08-006
 in Selected Locations



     •   Zero tolerance policies and action plans.
     •   VOE Vital Few List.19
     •   Attendance records for required workplace violence awareness training.
     •   TAT incident reports and responses.
     •   Newsletter articles and stand-up talks related to the zero tolerance policies and
         action plans.
     •   Numbers of grievances and EEO complaints.
     •   Numbers of assaults and credible threats.
     •   HR managers’ and staff roles and responsibilities in the workplace violence
         prevention and response programs.
     •   Safety talks and direct mailings related to the zero tolerance policies and action
         plans.
     •   Existence of TAT Hotline numbers.

Although we relied on data obtained from the EEO Complaints Tracking System,
Grievance Arbitration Tracking System, Inspection Service Integrated Information
System, NTD, payroll database, and the Web-Enabled Enterprise Information System,
we did not test the validity of the data and controls over the systems. We believe the
computer-generated data was sufficiently reliable to support the opinions and
conclusions in this report.

We conducted this performance audit from December 2007 through May 2008 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances.20 Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We discussed our observations
and conclusions with management officials on March 11, 2008, and included their
comments where appropriate. We also issued reports to five area vice presidents. See
Appendix D for a list of the five reports.




19
   The VOE Vital Few List identifies PC facilities with the largest opportunity for VOE Survey score improvement.
20
   For example, we reviewed internal controls related to the posting and dissemination of PC zero tolerance
statements, FY 2006 workplace violence awareness training records, TAT incident case files, climate indicators used
to monitor and evaluate PC workplace environments, TAT meeting frequency and minutes, and performance
measures used to evaluate TAT performance.


                                                        17
Violence Prevention and Response Programs                                          HM-AR-08-006
 in Selected Locations


                           APPENDIX D: PRIOR AUDIT COVERAGE

                                                                                         Monetary
                  Report Title                   Report Number    Final Report Date       Impact
1.   Postal Service’s Violence Prevention and   HM-AR-08-005     January 14, 2008           NA
     Response Program in Four Northeast
     Area Performance Clusters
2.   Postal Service’s Violence Prevention and   HM-AR-08-004     November 13, 2007          NA
     Response Program in Two Pacific Area
     Performance Clusters
3.   Postal Service’s Violence Prevention and   HM-AR-08-003     November 7, 2007           NA
     Response Program in Three Southwest
     Area Performance Clusters
4.   Postal Service’s Violence Prevention and   HM-AR-08-002     November 2, 2007           NA
     Response Program in Three Southeast
     Area Performance Clusters
5.   Postal Service’s Violence Prevention and   HM-AR-08-001     October 16, 2007           NA
     Response Program in Three Capital Metro
     Area Performance Clusters
6.   Postal Inspection Service Security         SA-AR-07-004     July 10, 2007          $144,000
     Controls and Processes – Area Security
     Assessment Program
7.   Postal Service Security Controls and       SA-AR-07-003     May 9, 2007                NA
     Processes for the Pacific Area
8.   Postal Service Security Controls and       SA-AR-07-002     March 30, 2007             NA
     Processes for the Capital Metro Area
9.   National Capping Report on the Postal      LB-AR-01-020     August 23, 2001            NA
     Service Violence Prevention and
     Response Programs

This capping report summarizes the overall findings for the first five reports listed above.
The remaining reports were used to evaluate whether the PCs ensured appropriate
safeguards for employees, customers, and property. There are a number of other
related reports that are referenced in the issued reports listed above.




                                                   18
Violence Prevention and Response Programs                                                                                               HM-AR-08-006
 in Selected Locations


              APPENDIX E: SUMMARY OF HEADQUARTERS’, AREAS’, AND PERFORMANCE CLUSTERS’
                               CONDITIONS RELATED TO AUDIT OBJECTIVES

Objective 1 – Determine if the PCs implemented required controls (policies and procedures) to reduce the potential for
              violence.
                                                                                      Capital Metro       Northeast       Pacific   Southeast    Southwest
                                                                                          Area              Area           Area       Area         Area




1. Security Strategy – Ensure appropriate safeguards for
   employees, customers, and property.
Condition     PCs did not consistently ensure appropriate security safeguards
                                                                                      X    X     X                        X    X
              were in place and complied with at many facilities.
              PCs may not have ensured appropriate security safeguards
                                                                                                      X   X   X       X             X   9   X   X      X   X
              were in place and complied with at many facilities.
              •   Area and PC managers did not maintain documentation
                  that showed how the security deficiencies identified in
                  1,216 FY 2006 ASAP reviews were corrected. For
                  example, the reviews identified that exterior doors/access                          X   X   X       X             X   9   X   X      X   X
                  points to facilities were not secured (89 deficiencies), and
                  authorized access to the facilities was not challenged (47
                  deficiencies).


2. Communication of Policy Strategy – Consistently communicate and
   enforce Postal Service policy regarding violent and inappropriate behavior.
Condition     PCs disseminated FY 2006 current local zero tolerance policies
                                                                                      9    9     9    9   9   9       9   9    9    9   9   9   9      9   9
              to all PC employees.
              •     The zero tolerance policy was not posted in 23 of the 54
                                                                                      X    9     X    X   X   X       9   X    X    9   X   X   9      X   X
                    facilities visited.
              •     The zero tolerance policy was not visible in two of the 31
                                                                                      9    X     9    9   9   9       9   9    9    9   9   9   9      9   9
                    facilities that posted it.
              •     The zero tolerance policy was not signed by the lead plant
                                                                                      X    X     9    9   9   X       X   X    9    X   9   X   X      9   9
                    manager.
Note:   X indicates the PC was not in compliance.
        9 indicates the PC was in compliance.
          no symbol indicates not applicable.



                                                                                 19
Violence Prevention and Response Programs                                                                                                                 HM-AR-08-006
 in Selected Locations



                                                                                           Capital Metro           Northeast            Pacific      Southeast           Southwest
                                                                                               Area                  Area                Area          Area                Area




2. Communication of Policy Strategy (continued) – Consistently
   communicate and enforce Postal Service policy regarding
   violent and inappropriate behavior.
Condition          Workplace violence awareness training needed for some
                                                                                           X     X      X     X     X     X      X      X     X     X     X     X        X   X   X
                   employees and TAT core members.
                   •  HR managers ensured most employees (140,055) received
                                                                                           9     9      9     9     9     9      9      9     9     9     9     9        9   9   9
                      the required training.
                   •  HR managers ensured all TAT core members received the
                                                                                           9     9      9     X     9     9      X      9     9     9     9     9        9   9   9
                      required training.
                   •  HR managers did not ensure all managers, supervisors,
                                                                                           X     X      X     X     X     X      X      X     X     X     X     X        X   X   X
                      and 204b supervisors received the required 8-hour training.


Condition          TATs did not fully implement violence prevention strategies to
                   ensure incidents of violence and inappropriate behavior were            X     X      X     X     X     9      X      X     X     X     X     9        X   X   X
                   fully addressed in accordance with the TAT Guide.
                   •     123 of the 214 incidents reported to TATs in FY 2006 were
                                                                                           X     X      X     X     X     9      X      X     X     X     X     9            X   X
                         not properly addressed.21
                         ¾ 96 did not receive proper case management (including
                                                                           22
                              documenting the assessment of the risk level) and            X     X      X     9     X     9      X      X     X     X     X     9            X   X
                              were not monitored and traced to ensure resolution.
                         ¾ 71 had insufficient (or no) documentation which
                              prevented us from determining how they were                  X     X      X     9     9     9      9      9     X     X     X     9            X   X
                              addressed and resolved.
                       ¾    71 had no documented risk abatement plans.                     X     X      X     9     X     9      X      X     X     X     X     9            X   X

                       ¾    33 were not immediately and firmly responded to.               X     X      X     X     9     9      9      9     9     X     X     9            X   X
                   •   Incident tracking logs not properly maintained to show
                                                                                           X     X      X     X     9     X      X      X     X     X     X     X            X   X
                       when 123 of the 214 incidents were reported and resolved.



21
     Incidents reported to the Albuquerque TAT were not documented (no incident case files) or recorded in a tracking log and may not have been addressed.
22
     The TAT Guide defines the priority risk levels as priority 1 - extreme risk; priority 2 - high risk; priority 3 - low or moderate risk; and priority 4 - no risk.


                                                                                      20
Violence Prevention and Response Programs                                                                                                HM-AR-08-006
 in Selected Locations


                                                                                       Capital Metro       Northeast       Pacific   Southeast    Southwest
                                                                                           Area              Area           Area       Area         Area




3. Environment and Culture Strategy – Create a work setting
   and maintain an atmosphere perceived to be fair and free
   from unlawful and inappropriate behavior.
Condition        HR managers took positive steps toward creating an
                 atmosphere perceived to be fair and free from unlawful and            9    9     9    9   9    9      9   9    9    9   9   9   9      9   9
                 inappropriate behavior.
                 •   HR managers did not maintain documentation on how they
                     used other climate indicators to monitor and evaluate the
                                                                                       X    X     X    X   X    X      X   X    X    9   X   X   X      X   X
                     workplace environment (including the frequency) except for
                     VOE Survey results.


Condition        TATs did not consistently conduct quarterly meetings, properly
                 prepare meeting minutes, and disseminate minutes to required          X    X     X    X   X    9      X   X    X    X   X   X   X      X   9
                 TAT members.
                 TATs had the requisite number and type of team members
                                                                                       9    9     9    9   9    9      X   9    X    9   9   9   9      9   9
                 required by the TAT Guide.


Condition        Measures to gauge TATs’ success were not documented and
                                               23                                      X    X     X    X   X    X      X   X    9    X   X   X   X      X   X
                 may not have been adequate.
                 •  TATs informally obtained verbal feedback or conducted
                                                                                       9          9                        9
                    after action reviews with employees.
                 •  TATs informally used TAT discussions and reviews of VOE
                                                                                            9          9   9    9      9             9   9   9          9   9
                    Surveys.
                 •  TAT used surveys as identified in the TAT Guide and
                                                                                                                                9
                    maintained documentation.
                 •    TAT did not document informal measurements.                      X    X     X    X   X           X   X    9    X   X   X          X   X
                 •    TAT informally measured its performance by using risk
                      abatement plans and evaluating the incidents during TAT                                   X
                      meetings.



23
     The Albuquerque PC did not discuss or establish measures to evaluate the team’s performance.


                                                                                  21
Violence Prevention and Response Programs                                                                                               HM-AR-08-006
 in Selected Locations




Objective 2 – Determine the adequacy of oversight of the workplace violence prevention programs at the
              headquarters, area, and PC levels.
                                                                                      Capital Metro       Northeast       Pacific   Southeast   Southwest
                                                                                          Area              Area           Area       Area        Area




Oversight of the Workplace Violence Prevention and Response
Programs
Condition    Area and PC HR managers did not provide adequate oversight
                                                                                      X    X     X    X    X   X      X   X    X    X   X   X   X      X   X
             of the violence prevention and response programs.
             •    PC managers did not ensure TATs implemented many
                  required policies and procedures to reduce the potential for
                                                                                      X    X     X    X    X   X      X   X    X    X   X   X   X      X   X
                  violence related to security, communication of policy, and
                  the environment and culture.
             •    PC managers did not ensure appropriate TAT processes
                                                                                      X    X     X    X    X   X      X   X    X    X   X   X   X      X   X
                  were followed.
             •    PC managers did not ensure that performance measures
                                                                                      X    X     X    X    X   X      X   X    9    X   X   X   X      X   X
                  were documented.
             •    Former area HR managers did not ensure the PCs
                  implemented the programs even though the OIG
                                                                                           X     X                        X         X   X   X
                  recommended improvements in August 1999 and
                  September and November 2000.
             Headquarters EAP/WEI Programs Office did not provide
             adequate oversight of the violence prevention and response               X    X     X    X    X   X      X   X    X    X   X   X   X      X   X
             programs.
             •    The activities of the 15 PCs were not monitored and TAT
                  processes were not reviewed to determine compliance with
                                                                                      X    X     X    X    X   X      X   X    X    X   X   X   X      X   X
                  the TAT Guide and whether the processes were effective
                  or needed improvement.




                                                                                 22
Violence Prevention and Response Programs                 HM-AR-08-006
 in Selected Locations


                      APPENDIX F: MANAGEMENT’S COMMENTS




                                            23
Violence Prevention and Response Programs        HM-AR-08-006
 in Selected Locations




                                            24
